AUDIT OF THE BUREAU OF JUSTICE ASSISTANCE 

  AWARD TO LOUDOUN COUNTY, VIRGINIA 

             SHERIFF'S OFFICE 





         U.S. Department of Justice 

       Office of the Inspector General 

                Audit Division 



        Audit Report GR-30-13-002 

               March 2013 


      REDACTED - FOR PUBLIC RELEASE 

         AUDIT OF THE BUREAU OF JUSTICE ASSISTANCE 

           AWARD TO LOUDOUN COUNTY, VIRGINIA 

                      SHERIFF'S OFFICE 


                              EXECUTIVE SUMMARY* 


      The Department of Justice (DOJ) Office of t he Inspector Genera l (OIG)
completed an audit of grant number 2010-DD-BX-0483 in the amount of
$3,000,000 awarded to Loudoun Cou nty, Virginia Sheriff's Office (Loudoun
County). Loudoun County is the fiscal agent for the Northern Virginia Gang
Task Force (Task Force) that is comprised of personnel from 17 law
enforcement jurisdictions in Northern Virginia. Since its inception in 2003,
the Task Force has worked to combat gang crime in Northern Virginia and to
provide prevention and intervention services to at risk and gang involved
youth.

      We conducted this audit to determine whether costs claimed under t he
grant were allowable, reasonable, and in accordance with applicable laws,
regulations, guidelines, and the terms and condit ions of th e award .

      Our audit found that t he transactions were, in general, properly
authorized, classified, supported, and charged to the grant. However,
Loudoun County could improve its internal controls to ensure compliance
with DOJ gra nt requi rements. We fo und Loudoun County did not mainta in
grant documentation regarding how costs incurred by task force members
reconcile with costs claimed fo r reimbursement under t his award, and
Loudoun County did not maintain a complete and accurate listing of task
force members. Furthermore, Loudoun County charged the grant $109,887
in costs that we consider unsupported or unallowable. These costs include
the following :

   • 	 Unsupported subgrantee sa lary expense of $104,546 where a
       subgrantee allocated a fixed percentage of a task force member's work
       hours to this grant that did not reflect actual hours worked on the Task
       Force.

   • 	 Unallowable travel costs of $3,230 for per diems paid to 17 task force
       members to attend a three-day conference that was not specifically
       budgeted under t his grant.

   • 	 Unsupported subgrantee expense of $2,111 for the salary of a task
       force member that did not reflect the hours worked on his timesheet.

        * The full version of this report contains information that may be protected by the
Privacy Act of 1974, 5 U.S.C. § 552(a) or may implicate the privacy rights of identified
individuals. Therefore, Office of the Inspector Genera l redacted portions of the full report to
create this public version of the report.
      Our report contains four recommendations. We discussed the results
of our audit with Loudoun County officials and have included their comments
in the report as applicable.




                                     ii
                                       Table of Contents 

                                                                                                       Page

INTRODUCTION ................................................................................ 1 

  Audit Approach ...... ..... .. ..... ................ .......... ...... .................... ... ... ..... 1 

FINDINGS AND RECOMMENDATIONS •••••• •• .•.•••••••••••••••••••••••••....•••••••• 3 

  Reporting ...... ................ ........... ....... .. ..... ........ ........... ....................... 3 

   Federal Financial Reports .......... ......... ... ..... ....... ......... .............. ........ 4 

   Progress Reports ...... .......... .......... ... ..... .... ......... ...................... ... .... 4 

  Drawdowns ......................... ........ ...... .................. .......................... ... 5 

  Budget Management and Control .. ........ ................... ........ ...... ............. 5 

  Grant Expenditures ..... ....... ..... .. ..... .... .......... .... ........... .................. ... . 6 

   Personnel Costs ............................... ...... ....... ............... .... .... ......... .. 7 

   Other Direct Costs .... .................. .. ........ ...... ....... ......................... .. .. 7 

  Contract Management ............. ........ ... ........ ...... ... ................. .. ........... 10 

  Recommendations ......... ............ ...... .... ....... ....... ... ........................ .... 10 

SCHEDULE OF DOLLAR-RELATED FINDINGS••.•...• •••••••••••••••••••••••••••• 11 

APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ....•••.••••••••. 12 

APPENDIX II - OFFICE OF JUSTICE PROGRAMS RESPONSE TO THE 

 DRAFT AUDIT REPORT ...........••••••••...........•••.•....•••••••••••••••••••••••••• 14 

APPENDIX III - LOUDOUN COUNTY SHERIFF'S OFFICE RESPONSE TO 

 THE DRAFT REPORT •......• ••••• ..•••••.•••••..••••••••....••••••••••••••• •••••••• •••••• 16 

APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL_                      ANALYSIS 

 AND SUMMARY OF ACTIONS NECESSARY TO 

  CLOSE THE REPORT •••••••..•.••••••••••••••••••••.••.••••••••....•••••••.....•••••••••• 19 

                                INTRODUCTION

      The Office of the Inspector General, Audit Division, has completed an
audit of gra nt 2010-DD-BX-0483 in t he amount of $3,000,000 awa rd ed to
Loudoun County, Virginia Sheriff's Office (Loudoun County) from the Bureau
of Justice Assistance (BJA). Loudoun County is the fisca l agent for the
Northern Virginia Gang Task Force (Task Force), which is comprised of
personnel from 17 law enforcement jurisdictions in Northern Virginia.

      Since its inception in 2003, the Task Force has worked to combat gang
crime in Northern Virginia and to provide prevention and intervention
services to at risk and gang involved youth. Some goals of the Task Force
include targeting gang enforcement strategies, documenting and analyzing
trends in gang related crime, and training personnel in gang recognition and
appropriate prevention methods.

Audit Approach

       We conducted this audit to determine whether costs claim ed under the
grant are allowable, reasonable, and in accord ance with applicable laws,
reg ulations, guidelines, and terms and conditions of the award . To
accomplish this objective, we tested compliance with what we consi dered the
most important conditions of the grant. Unless otherw ise stated in the
report, we used t he Office of Justice Programs (OJP) Financial Guide
( Financial Guide) to assess Loudoun County performance and compliance
with grant requirements. 1

      Specifica lly, we tested what we believed to be critical award
requirements necessary to meet the objective of the audit, including:

   • 	 Reporting to determine if the requi red federal financial reports and
       progress reports were submitted timely and accurately reflected grant
       activity;

   • 	 Drawdowns to determine whether grant drawdowns were adequately
       supported and if the grantee wa s managing receipts in accordan ce
       with federal requirements;

   • 	 Budget Management and Control to ensu re that Loudoun County
       appropriately tracked costs to approved budget categories;
       1
          The Financial Guide serves as a reference manual that assists award recipients in
the fiduciary responsibility to safeguard award funds and ensure funds are used
appropriately. OJP requires award recipients to abide by the requirements in the Financial
Guide.
   • 	 Grant Expenditures to determine the accuracy and allowability of
       costs charged to the grant; and

   • 	 Contract Management to ensure compliance with overa ll financial
       management req uirements for procurements.

      The award did not include program income, matching funds, or indirect
costs. The results of our analysis are discussed in detail in the Findings and
Recommendations section of the report. Appendix I contai ns additional
information on our objective, scope, and methodology.




                                      2

               FINDINGS AND RECOMMENDATIONS 


           COMPLIANCE WITH ESSENTIAL AWARD REQUIREMENTS

       Our audit found that the transactions were in general, properly
       authorized, classified, supported, and charged to the grant.
       However, Loudoun County could improve its internal controls to
       ensure compliance with DOJ grant requi rements. We found
       Loudoun County did not maintain grant documentation regarding
       how costs incurred by task force members reconcile with costs
       claimed for reimbursement under this award, and Loudoun
       County did not maintain a complete and accurate listing of task
       force members. Additionally, we identified $109,887 in
       unallowable or unsupported grantee expenses.

Reporting

       The specia l conditions of the grant require that Loudoun County
comply with administrative and financial requirements outlined in the
Financial Guide and the requirements of the Office of Management and
Budget (OMB) Circular A-133, Audits of States, Local Governments and Non­
Profit Organizations (OMB Circular A-133 ). 2 The Financial Guide requires
that grantees submit both financial and program progress reports to inform
awarding agencies on the status of each award . Federal Financial Reports
(FFRs) should detail the actual expenditures incurred for each quarterly
reporting period, whi le progress reports should be submitted semian nually
and describe the activities, obstacles, and achievements of the project
supported by each award.

       Because accurate and timely FFRs and progress reports are necessary
to ensure that DOJ awarding agencies can effectively monitor award
activities and expend itures, we reviewed Loudoun County's reports for grant
number 2010-DD-BX-0483. As detailed in the following sections, Loudoun
County generally submitted required FFRs and progress reports in a t imely
manner. Additionally, the FFRs accurately reported grant expenditure
activity and we were able to verify that the progress reports accurately
reflected actual program accomplishments.


       2
          OMB Circular A- 133 requires non - federal entities that expend at least $500,000 a
year in federal awards to have an audit conducted of its fi nancial statements. The purpose
of the audit, also known as a Sing le Audit, is to determine whether the financia l statements
and schedu le of expenditu res of federal awards are presented fairly in all material respects
in conformity with generally accepted accounting principles. As discussed in this report, we
reviewed Loudoun County's Single Audits for Fiscal Years 2010 and 2011.


                                              3

Federal Financial Reports

      DOJ awarding agencies monitor the financial performance of each
grant via FFRs. According to the Financial Guide, FFRs should be submitted
within 30 days of the end of each quarterly reporting period. Even when
there have been no outlays of grant funds, a report containing zeroes must
be submitted. Awarding agencies may withhold funds or future awards if
reports are submitted late, or not at all.

      To verify the timeliness of the FFRs, we tested the last four reports
submitted for the audited grant. We compared the submission date of each
report to the date each report was due, and found that Loudoun County
submitted the four FFRs in a timely manner.

      The Financial Guide also states that the grantee's general ledger must
support all amounts reported on the FFRs. To verify the accuracy of the
FFRs, we discussed the FFR processes with Loudoun County's financial
department, compared the amounts reported on the last four FFRs to
expenditures recorded in Loudoun County's accounting records, and
reviewed adjusting entries. Based on our testing, we were able to reconcile
the general ledger to the FFRs. 3

Progress Reports

      While FFRs report grant financial activity, progress reports describe the
project status and accomplishments of the DOJ-grant supported program or
project. Progress reports should also describe the status of the project and
compare actual accomplishments to anticipated grant objectives. According
to the Financial Guide, grantees are required to submit progress reports
every 6 months during the performance period of the award. Progress
reports are due 30 days after the end of each semi-annual reporting period,
June 30 and December 31. DOJ awarding agencies may withhold grant
funds if grantees fail to submit accurate progress reports on time.

      To assess whether Loudoun County submitted progress reports on
time, we reviewed the last four progress reports and compared the
submission dates to the due date for each progress report. We found that
the four progress reports tested were submitted in a timely manner.

     To determine if Loudoun County progress reports contained
achievements related to its program goals and objectives, we analyzed and

       3
         Loudoun County maintains its general ledger on a cash basis, but reports the grant
expenditures on the FFRs based on accrual accounting.


                                            4

compared the progress reports for the period July 2010 through June 2012
to the program objectives. Based on our review, Loudoun County was
reporting achievements related to its program goals and objectives to BJA.

       To assess the accu racy of t he progress reports, we selected a sample
of 20 reported achievements for the period July 2010 t hrough June 2012 and
compared them to source documentation. From our review, we determined
t he progress reports accurately reflected program goa ls and achievements
as set forth in the grant documentation.

Drawdowns

      To obtain DOJ award money, award recipients must electronically
request grant funds via draw downs. The Financial Guide states that award
recipients should only request federal awa rd funds when they incur or
anticipate project costs. Therefore, recipients shou ld time their requests for
award funds to ensure they will have only the minimum federal cash on
hand required to pay actual or anticipated costs within 10 days.

      According to the Loudou n County Sheriff Office Budget Manager,
quarterly drawdown requests are based on the amount of expenditures
reported on t he FFR. To ensure that Loudoun County requested fu nds
properly and kept minimum federal cash on hand, we analyzed their
drawdowns to date and compared the overall amount to the Loudoun County
general ledger. Overall, we found that t he amounts drawn down did not
exceed the expenditures in the accounting records.

Budget Management and Control

       Grantees should expend funds according to the budget approved by
the awarding agency and included in the final award. Approved award
budgets docu ment how much the recipient is authorized to spend in high­
level budget categories, such as personnel, supplies, and contractors. The
Financial Guide also states that award recipients may requ est a modification
to approved award budgets to reallocate amounts between various budget
categories within the same award . No prior approval is req uired if th e
rea llocations between budget categories do not exceed 10 percent of the
total award amou nt. We compa red t he actual amounts spent in each budget
category to the budgeted amounts in the same categories. For award 2010­
DD-BX-0483, Loudoun County adhered to the Financial Guide requirements.




                                       5

Grant Expendit ures

      According to 2 C.F.R. § 230 Cost Principles for Non-Profit
Organizations, costs are allowable if they are reasonable, consistent ly
applied, adequately document ed, comply with policies and proced ures, and
conform to any limitations or exclusions specified in applicable criteria. As of
August 23, 2012, Loudoun County general ledger reported $2,844,163 in
project costs associated wit h gra nt 20 10- DD- BX-0483 . We tested $539,094
( 19 percent) in expenses charged to the gra nt to ensure t hey were
allowable, and identified $109,887 in questioned costs. 4 Exhibit 1 displays
by type of sampled cost, the total val ue of the expenditures in each
category, and t he amount of questioned costs our testing identified .

                        Exhibit 1: Summary of Review of 

                               Grant Expenditures 





  Other Direct
  Costs :
   Travel                                                      3,230                3 230
   Su lies                                                         0
   Cont ractual
   Other

 Source: Loudoun County accounting records and OIG analysis




       4
           Questioned costs are expenditures that do not comply w ith legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the aud it, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.


                                             6

Personnel Costs

      The personnel costs of the grant include the salary and fringe benefits
of an adult re-entry officer and two task force officers representing the
grant's fiscal agent, Loudoun County. The salary and fringe benefits for the
other jurisdictions participating in the Task Force are billed to the fiscal
agent by their respective counties or cities and included in the budget
category entitled contractual.

      We interviewed Loudoun County personnel and reviewed the Loudoun
County policies for timekeeping, payroll, and allocating labor costs to grants.
Loudoun County requires all employees to submit a timesheet that details
the time spent on the Task Force for each bi-weekly pay period; supervisors
approve each timesheet. Loudoun County inputs the timesheet data into the
payroll system to calculate the appropriate salaries and benefits charged to
the grant.

      Salaries

      Loudoun County's 2010 Single Audit Report had findings which cited
that the County did not have timesheets or time and effort certifications for
another federal award program. To determine if labor charges from Loudoun
County were accurate, we judgmentally selected two non-consecutive pay
periods, October 2010 and August 2011, and reviewed the submitted
timesheets and payroll registers. We did not identify any inaccuracies based
on our review.

      Fringe Benefits

      When Loudoun County's employees work on grant projects, Loudoun
County incurs costs associated with providing its employees fringe benefits
such as payroll taxes, health insurance, and retirement plan contributions.
We reviewed the fringe benefits allowed in the approved budget and
compared the approved amounts to the amounts charged to the award. We
determined that a reasonable amount of fringe benefits were charged for
Loudoun County personnel.

Other Direct Costs

      We selected a judgmental sample of 25 other direct cost transactions
from award 2010-DD-BX-0483 totaling $471,023 to determine if the charges
were included in the approved budget, allowable, and allocable to the DOJ
award. In our review of the supporting documentation provided by Loudoun
County, we noted at least six instances where we could not reconcile the


                                      7

expenses claimed for reimbursement to t he supporting source
documentation primarily beca use of grantee adjustments. While the
adjustments were small, we recommend OJP ensure the auditee maintains
accurate and complete documentation of al l adjustments. Further, the
listing of task force members and their dates of service provided to us was
not accurate, as it excluded a task force member and did not have the
correct employment timefra me for another. As Loudoun County must have
an accurate and complete listing of task force members and their service
dates in order to effectively monitor the award, we recommend OJP ensure
that Loudoun County maintains a complete and accurate listing of when task
force members join and leave the Task Force.

      As shown in Exhibit 2, we questioned $109,887 of grantee costs .

            Ex hibit 2: Summary of Questioned Other Di rect Costs

                General Ledger
 Account                             Amount        Questioned
Description           Date             ($)         Amount($)               Note
                                                                    Missing support for
 Contractual        06/07/11              27,139            2,111
                                                                      hours charged
 Contractual    3/24/11 ­ 7/18/12        104,546          104,546      No time sheet
                                                                        Unapproved
   Travel           08/09/11               3,230            3,230
                                                                        conference
                           TOTAL      $ 134, 915         $109, 887
Source: OIG analysis of Loudoun County's general ledger and supporting documentation

      Missing Support for Hours Charged

      As the primary grant recipient, Loudoun County reimburses the salary
expense incurred by the employees from other jurisdictions for its work on
the Task Force as contractual expenses . During our testing, we identified a
reimbursement request from Fairfax County, a task force participant, in the
amount of $27,139 for salaries paid to a gang prevention coordinator for
work performed on the Task Force from September 1, 2010 to December 31,
2010. We reviewed the timesheets and payroll reports for this
reimbursement and found that the December 3, 2010 timesheet did not
support the 56 hours that was charged to the grant. Loudoun Cou nty
explained that the task force officer forgot to record his time for these hours.
Timesheets must reflect an after-the-fact distribution of the actual activity of
the employee, account for t he total activity for which the person is
compensated, be prepared to coincide with one or more pay periods, and be
signed by the employee and approved by a supervisor with firsthand
knowledge of t he work performed. As there was not adequate


                                          8

documentation on the timesheet for the 56 hours charged to the grant, we
question the $2,111 as unsupported and recommend OJP remedy $2,111 in
contractual costs.

       No Time Sheet

       A Manassas Park employee, a task force participant who helped
administer the award, charged the award for 63 percent (25 hours) of their
salary and fringe benefits. This contractua l salary charge was not supported
by time records. Specifically the timesheet provided did not differentiate
between task force hours and time spent on other projects. According to the
Financial Guide, grant recipients who work on multiple programs or cost
activities must reasonably allocate their labor costs to each activity based on
time and effort reports, more commonly referred to as timesheets. These
timesh eets must reflect an after-the-fact distribution of the actual activity of
the employee, account for the total activity for which the person is
compensated, be prepared to coincide with one or more pay periods, and be
signed by the employee and approved by a supervisor with firsthand
knowledge of the work performed. We could not obtain sufficient evidence
of how th is 63 percent was determined. Therefore we question the total
salary and benefits reimbursed to this task force member totaling $104,546
and recommend OJP remedy $104,546 in unsupported contractual costs
charged to the grant. 5

       Unapproved Conference

      The budget for t his grant provided for travel expenses for task force
members to attend two specific training or professional conferences events.
One itemized training event was for eight people and the other training
event for two people. During testing, we identified an expense for per diem
paid to 17 people who attended a gang task force symposium in Orlando,
Florida. This training symposium was not listed in the grant approved
budget and the other cost associated with this symposium was paid for by
the previous Northern Virginia Gang Task Force grant. The Financial Guide
requires that allowable costs be reasona ble, allocable, necessary to the
project, and comply with funding statutes requirements. As this particular
event was not budgeted for under award 2010-00-BX-0483 and t he
associated cost for the symposium was charged to another grant, we
consider the $3,230 of travel costs unallowable, and we recommend OJP
remedy $3,230 in unallowable travel costs.


      5
       The auditee, as of August 2012, adjusted their timekeeping procedures to
document the number of hours this employee worked on the task force.


                                           9

Contract Management

      According to Loudoun County officia ls as well as our review of t he
financia l and operationa l activities associated with the Task Force, we did not
identify any Loudoun County contracts for this grant. Instead, the Task
Force uses existing contracts that each jurisdiction already has in place. 6 We
reviewed the procurement policies at Loudoun County and we did not note
exceptions to Loudoun County's contract ma nagement for this grant.

Recommendations

We recommend that OJP :

1. 	 Remedy the $106,657 in unsupported subgra ntee sa lary costs.

2. 	 Remedy the $3,230 in unallowable travel costs .

3. Ensure that Loudoun Cou nty maintains accurate and complete
   documentation of all cost adjustments reimbursed under this grant.

4 . 	Ensure that Loudoun County maintains a complete and accurate listing of
     when task force members join and leave the Task Force.




       6
        Fairfax County has contracted with Northern Virg inia Family Services and Arlington
County has contracted with Offender Aid and Recovery .


                                            10 

            SCHEDULE OF DOLLAR- RELATED FINDI NGS 


QUESTIONED COSTS: 7                                             AMOUNT        PAGE
                                                                    ($ }
Unsupported Subgrantee Costs

Missing Support for Hours Charged                                    2,111      8

No Time Sheet                                                     104,546       8

    Tot al Unsupported Costs
                                                               $1 06,657
Una llowable Costs

Unapproved Conference                                               3,230        6

    Total Unallowable Costs                                       $3,230

Total Questioned Costs                                         $ 109,887




       7
          Questioned costs are expenditures that do not comply with legal, regulatory or
contractua l requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting docu mentation.


                                            11 

                                                              APPENDIX I 


         OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant reviewed were allowable, supported, and
in accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) federal financial reports and
progress reports, (2) drawdowns, (3) budget management and control,
(4) expenditures, and (5) contract management.

      We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.

       Our audit concentrated on grant no. 2010-DD-BX-0483 in the amount
of $3,000,000 to Loudoun County, Virginia Sheriff's Office (Loudoun County)
awarded by the Bureau of Justice Assistance. Since its inception in 2003,
the Northern Virginia Gang Task Force was established as a multi­
jurisdictional partnership comprised of local, state, and federal law
enforcement agencies that worked to combat gang crime in Northern
Virginia and to provide prevention and intervention services to at risk and
gang involved youth.

       We tested compliance with what we considered to be the most
important conditions of the award. Unless otherwise stated in our report,
the criteria we audit against are contained in the OJP Financial Guide and the
award documents.

      In conducting our audit, we performed sample testing in the following
areas:

  • 	 Drawdowns. We analyzed Loudoun County's overall drawdowns of
      $2,842,617 for the DOJ award from the inception of the award through
      August 16, 2012. Loudoun County provided documentation supporting
      the drawdown requests.

  • 	 Payroll. We reviewed Loudoun County's Single Audit report, reviewed
      policies, and spoke with officials regarding timekeeping and the
      charging of personnel costs. To determine whether Loudoun County's

                                     12 

      labor costs were supported and allowable, we judgmentally selected
      two nonconsecutive pay periods to test. We determined whether
      personnel costs were computed correctly, properly authorized,
      accurately recorded, and properly allocated. We also analyzed the
      fringe benefits costs to ensure the charges were consistent with the
      approved budgeted amounts.

   • 	 Transactions. To test Loudoun County's transactions for
       authorizations, vouchers, and supporting documentation of the
       expense, we judgmentally selected 25 non-payroll transactions totaling
       $471,023. We ana lyzed the transactions to determine if the
       transactions were properly authorized, classified, recorded, supported,
       and charged to the grant.

   • 	 Contract Management. We interviewed Loudoun County's personnel
       for this award regarding the analysis, negotiations, and available
       documentation maintained for the selection of contractors. We
       obtained all available solicitations, request for proposa ls, negotiated
       contracts, and other supporting documentation for contractors
       performing services under the subject grant.

      In addition, we reviewed the timeliness and accuracy of Financial
Status and Progress Reports and reviewed the internal controls of the
financial management system.




                                      13 

                                                                                  APPENDIX II

     OFFICE OF JUSTICE PROGRAMS RESPONSE TO THE
                 DRAFT AUDIT REPORT

                                                       U.S. Department of Justice

                                                       Office ofJustice Programs

                                                      Office ofAudit, Assessment, and Management



                                                     Washington. D.C. 20531




Mar ch 18, 2013

MEMORANDUM TO:                   Troy M. Meyer
                                 Regional Aud it Manager
                                 Washington Reg ional Audit Office
                                 Office of the Inspector General

                                  Is/
FROM:                           Maureen A. llcnncberg
                                Director

SUBJECT:                        Response to the Draft Audit Report, Audil ofthe Bureau ofJustice
                                Assistance Award to Loudoun County, Virginia Sheriff's Office

Th is memorandum is in reference to your correspondence, dated February 12, 2013 , transm itting the
above-referenced draft audit report for the Loudoun County, Virg inia Sheriffs Office (Loudoun County).
We consider the subject report resolved and request written acceptance o f this action from your office.

The dra ft report contains fou r recommendations and $109,887 in questioned costs. The fo llowing is the
Office of Justice Programs' (OJP) analysis of the draft audit report recommendations. For ease of review,
the recommendations are restated in bold and are fo llowed by our response.

1.      We r ecommend that OJP r emedy the $ 106,657 in unsupported subgr a ntee salary costs .

        OJP agrees with the recommendation. We will coordinate with Loudoun County to remedy the
        $1 06,657 in questio ned costs, related to unsupported subgrantee sa lary costs. If adequate
        documentation cannot be provided, we will request that Loudoun County return the funds to the
        U.S. Department of Justice (DOJ); adjust their accounting records to remove the costs; and
        subm it a revised Federal Financial Report (FFR) for award number 20 10-DD-BX-0483 .

2.      We r ecommend that OJP remedy the $3,230 in unallowable tra vel costs.




                                                  14 

        OJP agrees with the recommendation. We will coordinate with Loudoun County to remedy the
        $3 ,230 in questioned costs, related to unallowable travels costs. If adequate documentation
        cannot be provided, we w ill request that Loudoun County return the funds
        to the DOJ; adjust their accounting records to remove the costs; and submi t a revised FFR for
        award number 20 I 0-DD-BX-0483.

3. 	    We recommend that OJP ensures that Loudoun County maintains accurate and complete
        documentation of all cost adjustments a
                                              ·eimburscd under this grant.

        OJP agrees with the recommendation. We wi ll coordinate with Loudoun County to obtain a copy
        of procedures implemented to ensure that it maintains accurate and complete documentation of all
        cost adjustments reimbursed under Federal grant awards.

4. 	    We recommend that OJP ensures that Loudoun County maintains a complete and accurate
        listing of when task force members join and leave the Task Force.

        OJP agrees with the recommendation. We will coordinate with Loudoun County to obtain a copy
        of procedures implemented to ensure that it ma intains a complete and accurate listi ng of when
        task force members join and leave the Task Fo rce.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additiona l information, please contact Jeffery A. Haley, Deputy Director, Audit and
Review Div ision, on (202) 616-293 6.

cc: 	   Jeffery A. Haley
        Deputy Director, Aud it and Review Division
        O ffice o f Audit, Assessment, and Management

        T racey Trautman 

        Deputy Director for Programs 

        Bureau o f Justice Assistance 


        A manda LoCicero 

        Audit Liaison 

        Bureau of Justice Assistance 


        Lesley Walker 

        Grant Program Specialist 

        Bureau o f Justice Assistance 


        Richard P. Theis 

        Assistant Director, Aud it Liaison Group 

        Internal Review and Evaluation Offi ce 

        Justice Management Division 


        Marc iaL. Wallace 

        Director, Office of Operations- Audit Division 

        Offi ce of the Inspector General 


        OJ P Executive Secretariat 

        Control Number2013 01 56 



                                                     15 

                                                                                     APPENDIX III 


 LOUDOUN COUNTY SHERIFF'S OFFICE RESPONSE TO 

             THE DRAFT REPORT
                                                        Sheriff Michael L. Chapman



              LOUDOUN COUNTY SHERIFF'S OFFICE
                                                                 880 Harrison Street SE, Leesburg, Virginia 20 175
                                                                                          Telephone 703-777-0407

February 28,2013


Troy Myer
Regional Audit Manager Washington Regional Audit Office
Office of the Inspector General
U.S. Department of Justice
1300 North 17th St.
Suite 3400
Arlington , VA 22209

Re: Loudoun County response to OIG audit for grant 2010-DD-BX-0483

Dear Mr. Myer;

Loudoun County is in receipt of the OIG audit draft report for the above grant. The OIG has
several recommendations which I would like to address:

  1. Remedy the $106,657 in unsupported sub-grantee salary costs.

     The amount of $106,657 in question is for an Intervention Coordinator from Fairfax County and
     the                  from Manassas Park.

     Loudoun County does not concur with this recommendation.

     There is a timesheet in question, pay period 25 of2010 {11/20/10-12/3/10) , where OIG states that
     the timesheet did not support the 56 hours that was charged to the grant. The grant budget that
     was submitted to BJA included four Intervention Coordinators and one Adult Re-Entry position to
     be fully funded. -            · from Fairfax County, was hired for this position and all hours worked
     was in direct relation to the GTF. In attachment 1, a letter has been submitted by ­
     ·········~~~~~~~~~~·~~~~· which explains that this timesheet in question
     was an oversight from both -               and -              · All timesheets before this date and
     after have been fully documented.

     The                               from the City of Manassas Park,                         was hired to
     administer the GTF grant and to handle financial matters for the City of Manassas Park. OIG has
     stated that the timesheets submitted for reimbursement back to the jurisdiction did not support the time
     charged to the grant. 63% or 25 hours per week were dedicated to GTF matters.


                                                    16 

                    immediate supervisor was the                                                 •
   -        monitored                   work, and approved all time cards prior to submission for
   reimbursements. Attached to this response is correspondence from -                 certifying •
   -          work hours, attachment 2.

   In corresponding with and at the request of BJA, all of -              timesheets have been revised
   and signed again to include the following message, attachment 3:

   "Each week                       worked 25 hours or more on verification of reimbursable
   expenditures from the 16 jurisdictions; answering requests from jurisdictions concerning
   reimbursement, etc.; requesting jurisdictions for additional backup and verification;
   scanning/sending qualified requests to Loudoun; budget development; new grant applications and
   bench marking to State and Federal agencies; attendance, participation, presentation to Executive
   Steering Committee and Board of Directors meetings; travel/training arrangements for NVGFT;
   maintaining credit cards and fuel cards; ad hoc training to jurisdictions and their financial liaisons;
   works closely with the Executive Director; and other grant administration as necessary to meet the
   requirements of the grant."

   Once this matter was brought to the attention of the Task Force administration by OIG, it was
   immediately corrected and - time sheets reported the task force time vs. the work time
   in Manassas Park.

2. Remedy the $3,230 in unallowable travel costs.

   Loudoun County does not concur with this recommendation.

   The budget submitted with the grant for travel specified two trainings; the Virginia Gang
   Intervention Association (VGIA) conference and the International Latino Gang Investigators
   Association (ILGIA) conference with a budget of $9,070 under travel for hotel , airfare and per diem
   and $4,600 in other for registration fees. Total training budget was $13,670. The GTF only spent
   $5,578 on training and had a remaining balance of $8,092.

  The GTF members attended a Gang Symposium Conference in Orlando, FL. The purpose of this
  training was to update and further their training, which focused on a wide range of domestic and
  international gangs, trends as well as all aspects of their associated activities, information sharing
  and differences in geographical gang trends. It meets the objective of the grant.

  Because of the large unspent remaining training budget balance and the expense falls within the
  10% rule, the                                           , who oversees the financial aspect of
  this grant, did not foresee this as unallowable cost.

  We are working with BJA to see if submitting a GAN to include this training as part of the training
  budget will remedy this recommendation .

3. Ensure that Loudoun County maintains accurate and complete documentation of all costs
adjustments reimbursed under th is grant.

  Out of 321 reimbursements to participating jurisdictions, only one reimbursement did not have
  any notes as to why an adjustment was made to the invoice. Adjustments made to other invoices
  had clear notes and bac    as to wh an invoice amount was chan ed. This was an oversight
  from the




                                                17 

      Going forward, if adjustments are made to an invoice, clear documentation will be provided.

  4. Ensure that Loudoun County maintains a complete and accurate listing of when task force 

  members join and leave the Task Force. 


      Loudoun County does concur with this recommendation.

     A listing of GTF members was provided to OIG with dates but some of the dates did not coincide
     with reimbursements. A directive, attachment 4, was sent on January 31 , 2013 t o -·
     the                               of the GTF.    This directive instructed -  to maintain an
     accurate database that shows when someone joins or leaves the GTF.

In closing, the Sheriffs Office and the Gang Task Force administration are working hand in hand with
BJA to remedy these recommendations. We are appreciative of your staffs' hard work to review the
gang task grant activities and costs.


Sincerely,




Michael L. Chapman
Sheriff




                                                 18 

                                                             APPENDIX IV

           OFFICE OF THE INSPECTOR GENERAL 

          ANALYSIS AND SUMMARY OF ACTIONS 

            NECESSARY TO CLOSE THE REPORT 


      The Department of Justice (DOJ) Office of the Inspector General (OIG)
provided a draft of this audit report to the Office of Justice Programs (OJP)
and the Loudoun County, Virginia Sheriff's Office (Loudoun County). The
responses are incorporated respectively as Appendices II and III of this final
report. The following provides the OIG analysis of the response and
summary of actions necessary to close the report.

   1. 	Resolved. OJP concurred with our recommendation to remedy the
       $106,657 in unsupported subgrantee salary costs. OJP stated in its
       response that it will coordinate with Loudoun County to remedy the
       $106,657.

      Loudoun County stated that it does not concur with the
      recommendation. Loudoun County provided a letter from t h e ­
                             attesting to the fact that the employee, for
      whom we questioned the timesheet, worked the 56 hours for the pay
      period in question and that all hours worked were for the Northern
      Virginia Gang Task Force (Task Force). The letter explained that the
      timesheet error was an oversight on part of both the employee and his
      supervisor. We note that this was an isolated incident for this officer
      as the officer had provided timesheets in all other transactions tested,
      and the supervisor and                               attested to the time
      charges for the period. Therefore, we close the part of this
      recommendation pertaining to $2,111 in unsupported labor costs.

     A Manassas Park employee, a task force participant who helped
     administer the award, charged the award for 63 percent (25 hours) of
     their salary and fringe benefits. This contractual salary charge was not
     ~ records. In regards to the questioned
     -	                  costs, Loudoun County provided documentation
     indicating that the analyst time cards were revised to include a
     statement by the analyst's supervisor that the analyst spent 25 hours
     per week working on the task force award. However, we were not
     provided with any documentation to support the 25 hours charged to
     the grant, which was based on an unsupported allocation of 63
     percent.



                                      19
   According to the Financial Guide, grant recipients who work on
   multiple programs or cost activities must reasonably allocate their
   labor costs to each activity based on time and effort reports, more
   commonly referred to as timesheets. These timesheets must reflect
   an after-the-fact distribution of the actual activity of the employee,
   account for the total activity for which the person is compensated, be
   prepared to coincide with one or more pay periods, and be signed by
   the employee and approved by a supervisor with firsthand knowledge
   of the work performed.

   In addition the 2010 Single Audit of Loudoun County noted a similar
   problem. Specifically, the Single Audit noted that it could not obtain
   sufficient evidence to determine the allocation of payroll expenditures
   on certain awards as there were no timesheets or time and effort
   report certifications. The Single Audit resulted in a recommendation
   requiring Loudoun County to update policies and procedures to require
   time and effort certifications for employees that charge time to two or
   more programs. Therefore, the remaining $104,546 of questioned
   cost can be closed when OJP remedies these costs.

2. 	 Resolved. OJP concurred with our recommendation to remedy the
    $3,230 in unallowable travel costs. OJP stated in its response that it
     will coordinate with Loudoun County to remedy the $3,230.

  Loudoun County disagrees with our recommendation, stating that the
  budget submitted for the grant provided for two specific trainings for a
  total of $13,670 . Of this total, the Task Force spent $5,578 resulting
  in a remaining balance of $8,092. Loudoun County indicates that the
  Task Force attended a separate training in Orlando, Florida which
  covered a variety of gang related topics that met the objectives of the
  grant and that the large unspent training fund fell within the 10
  percent rule for budget modifications in the OJP Financial Guide.

  However, the budget for this grant provided for travel expenses for
  task force members to attend two specific training or professional
  conferences events. One itemized training event was for eight people
  and the other training event for two people. During testing, we
  identified an expense for per diem paid to 17 people who attended a
  gang task force symposium in Orlando, Florida. This training
  symposium was not listed in the grant approved budget and the other
  costs (lodging, transportation) associated with this symposium was
  previously paid for by another Northern Virginia Gang Task Force
  grant. The Financial Guide requires that allowable costs be
  reasonable, allocable, necessary to the project, and comply with


                                   20 

   funding statutes requirements. As this particu lar event was not
   budgeted for under award 2010-DD-BX-0483 and t he associated cost
   for t he symposium was charged to another grant, we consider the
   $3,230 of travel costs unallowable.

   Further, the 10 percent rule applies to movement of costs between line
   items already budgeted and approved for under the grant. Because
   there was no transfer of funds between budgeted line items and the
   Orlando training was not specifically approved in the grant budget, the
   10 percent rule does not apply. This recommendation can be closed
   once we receive evidence that OJP has remedied the $3,230 in
   unallowable travel costs.

3. 	Resolved. OJP concurred with our recommendation that Loudoun
    County maintains accurate and complete documentation of all cost
    adjustments reimbursed under this grant. OJP stated that it will
    coordinate with Loudoun County to obtain a copy of procedures
    implemented to ensu re t hat it maintains accurate and complete
    documentation of all cost adjustments reimbursed under federal grant
    awards.

   Loudoun County did not concur with our recommendation, stating that
   our observation was limited to 1 out of 321 expense reimbursements
   Loudoun County provided to the participating jurisdictions on the Task
   Force. We disagree with this statement. During our audit testing we
   noted at least six instances where Loudoun County did not sufficiently
   document adjustments. While the adjustment amounts were small, as
   the primary grant recipient Loudoun County must maintain in its files
   both accurate and complete expense documentation that explains any
   adj ustments or allocations for grant expenditures. This
   recommendation can be closed once we receive evidence that Loudoun
   County has updated and implemented its policy to maintain accurate
   and complete documentation of all adjustments for grant
   expenditures.

4. 	Closed. OJP concurred with our recommendation t hat Loudoun
    County maintains a complete and accurate listing of when task force
    members join and leave the Task Force. The executive director of the
    Task Force issued a directive to its                      to create a
    database of when a member joins or leaves the task force. We
    received a copy of this directive; therefore this recommendation is
    closed.




                                  21
